                                      NATIONAL SCIENCE FOUNDATION
                                       OFFICE OF INSPECTOR GENERAL
                                         OFFICE OF INVESTIGATIONS

                                CLOSEOUT MEMORANDUM

TO: AIGI       File Number: I97070036                                          I   Date: 6 June 2002

Subject: Closeout Memo                                                                     Page 1 of 1


      There was no closeout written at the time this case was closed. The following information was
      extracted from the file in conformance with standard closeout documents.

      Our office was informed that the subject' was alleged to have committed employee embezzlement,
      theft, or fraud. The complainant, an NSF employee, alleged that the subject, another NSF employee,
      might have taken the complainant's personnel information to set up fraudulent cell phone accounts in
      the subject's name. Our investigation revealed that the subject was not an NSF employee, but was
      most likely a private company employee2who obtained the complainant's personnel information
      when she made a purchase at the private company. We worked with an Arlington Police Dept.
      detective, but were unable to obtain a current address for the private company employee, who no
      longer worked at that company.

      Accordingly this case is closed.




                Prepared by:                     Cleared by:

               Agent:          Attorney:        Supervisor:     AIGI
   Name:



 Signature &
    date:
